No.
IN THE SUPREME COURT OF THE UNITED STATES

ALEX WHITE, Petitioner
v.
THE STATE OF CALIFORNIA, Respondent.

On Petition For a Writ of Certiorari to the
California Court of Appeal, Second Appellate District, Division Five

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner, ALEX WHITE, asks leave to file the accompanying petition for
writ of certiorari, without prepayment of costs, and to proceed in forma pauperis.
Petitioner was represented by court appointed counsel in the California Court of
Appeal and in the California Supreme Court and was permitted to proceed in
forma pauperis in those courts. Pursuant to Rule 39.1, a copy of the state
appointment order is appended hereto.
Dated: August 18, 2021
Respectfully submitted,
____________________
JOHN A. COLUCCI
13273 Ventura Boulevard, Suite 101
Studio City, CA 91604
(818) 990-1507
Counsel for the Petitioner
ALEX WHITE

DECLARATION OF JOHN A. COLUCCI
I certify that I am a member of the Bar of this Court. I further certify that:
1. I will be representing the petitioner in his petition for writ of certiorari.
2. I represented petitioner by court appointment, under California Penal
Code section 1240, subdivision (a)(1), in the California Court of Appeal and in the
California Supreme Court and petitioner was permitted to proceed in forma
pauperis in those courts.
3. Petitioner remains incarcerated in a California State Prison and I have
no reason to believe that his financial situation has changed.
4. The appended state appointment order is a true copy of the California
order appointing counsel.
I declare, under penalty of perjury, that the foregoing is true and correct.
Executed this 18th day of August, 2021 at Studio City, California.

_______________________
JOHN A. COLUCCI

2

IN THE
COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION: 5
&28572)$33($/²6(&21'',67

The People v. White et al.
Alex White
B295147
LOS ANGELES No. BA444963

Apr 03, 2019
DANIEL P. POTTER, Clerk

kdominguez

Deputy Clerk

THE COURT:
Pursuant to appellant's request for appointment of counsel, and under the
authority of Penal Code Section 1240, subdivision (a) (1), the following attorney
is appointed counsel for appellant on this appeal:
John Colucci
Appellant's opening brief shall be filed within thirty days from the date of
this order.
Appellant is directed to keep the court informed of his/her mailing address at
all times. If you move, you MUST notify the clerk of this court immediately;
otherwise you may not receive important notices concerning your appeal.

58%,1P.J.
_________________________
Presiding Justice

Attorney's Address:
John Colucci (76098)
13273 Ventura Blvd., Suite 101
Studio City, CA 91604

Attorney's Phone:
(818) 990-1507

Appellant's Address:
Alex White BI-4492
North Kern State Prison
P.O. Box 4999
Delano, CA 93216-4999

Rev: 1

